No.

Jo-17II

IN THE

Jiwprtmt (Houri of i\\t plmtefr States

Supreme Court, U.S.
FILED

JUN 0 h 2021
nmCH OF THE CLbRK

I

Kevin K. Tung, Petitioner
v.
Janet Yijuan Fou
PETITION FOR A WRIT OF CERTIORARI
TO THE NEW JERSEY SUPREME COURT

PETITION FOR WRIT OF CERTIORARI
Kevin K. Tung, Esq.,
Pro Se
Queens Crossing Business
Center
136-20 38th Avenue,
Suite 3D
Flushing, NY 11354
ktung@kktlawfirm. com
(718) 939-4633

CURRY & TAYLOR ♦ (202) 350-9073

/]

I

QUESTIONS PRESENTED
The Supreme Court of New Jersey denied the
Petition for Certification and dismissed the Appeal as of
right from a decision of the Appellate Division of the
Superior Court of New Jersey, which had affirmed the
decision of the Superior Court of New Jersey, denying
Petitioner’s motion to intervene in a case where the
Petitioner was not a party, but Petitioner was judicially
criticized by the judge sitting on the case in a decision
which rose to a level of public reprimand and Petitioner
was referred to Office of Attorney Ethics for
investigation by the Appellate Division. All of those
activities were carried out in the absence of the
participation of the Petitioner.
Three questions are presented:
1.
Whether the New Jersey Judiciary’s
denial of the motion to intervene by the Petitioner in the
an action on the basis that Petitioner does not have “an
interest relating to the property or transaction which is
the subject of the transaction,” which directly conflicts
with its prior holdings that intervention can be granted
in an action when the applicant’s interest could be
adversely affected by the outcome of the litigation,
violated Petitioner’s constitutionally protected due
process right when his good name, professional
reputation, honor, or integrity was adversely affected by
the outcome of the litigation as a non-party.
2.
Whether
New
Jersey
Judiciary’s
treatment of its officers of court violated the equal
protection clause of the constitution when minority
attorneys are presumed dishonest and no due process is

needed to protect them, while attorneys deeply
connected with the judiciary systems can walk away
with no punishment for committing fraud upon the court,
which had caused the minority attorney to suffer harms
in relating to his good name, professional reputation,
honor, or integrity in his legal profession.
Whether New Jersey Judiciary’s failure to
implement pertinent due process procedures required
by the federal laws to safe guard the officers of the court,
such as, the Petitioner or attorneys similarly situated
from being maliciously prosecuted by fraud upon the
court where the Petitioner or attorneys similarly
situated are not a party to the action and are not given
opportunity to defend themselves created a hostile work
environment for its officers of the court.
3.

in

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

TABLE OF CONTENTS

in

TABLE OF AUTHORITIES

IV

PETITION FOR A WRIT OF
CERTIORARI.......................

1

OPINION BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ......... ...........

2

STATEMENT OF THE CASE

3

THE SUPERIOR COURT OF NEW JERSEY
DECISION.........................................................

12

THE APPELLATE DIVISION
DECISION................................

14

REASONS FOR GRANTING THE
WRIT..............................................

16

CONCLUSION

25

APPENDIX
SUPREME COURT OF NEW JERSEY ORDER
(4/9/2021).................................................................

la

IV

APPELLATE DIVISION OF SUPERIOR COURT
OF NEW JERSEY OPINION
(6/12/2020)................................................ .................. 2a
SUPERIOR COURT OF NEW JERSEY ORDER
(12/18/2018)..................... .......................................... 10a

V

TABLE OF AUTHORITIES
CASES
Bowers v. NCAA, 475 F.3d 524 (3rd Cir. 2007)......4,7,13
Chesterbrooke Ltd. P’ship v. Planning Bd. Of
Twp. Of Chester, 237 N.J.Super. 118,124, 567
A.2d 221 (App. Div. 1989)................................
Ex parte Garland, 71 U.S. (4 Wall.) 333
(1866)............................................ .......
Goldstein v. St. Luke’s Roosevelt Hosp.
Center, 430 F.3d 106,112 (2nd Cir. 2005)

25

3,16
6

Illinois v. Sarbaugh, 552 F.2d 768 (7th Cir. 1977)
22

In re Camden City, 170 N.J. 439,449, 790 A.2d
158 (2002).........................................................

25

Ins. Co. v. Schipporeit, Inc., 69 F.3d 1377 (7th
Cir. 1995).......................................... ............

23

New Jersey Dept, of Environmental
Protection v. Exxon Mobil Corp., 453
N.J.Super. 272,286,181 A.3d 257 (App. Div.
2018).............................................................

24

New Jersey Dep’t of Envtl. Prot. v. Exxon
Mobil Corp., 2015 NJ.Super.Unpub.LEXIS
3052

24

VI

Nuesse v. Camp., 128 U.S. App. D.C. 172, 385
F.2d 694 (D.C. Cir. 1967)....................................

24

Planned Parenthood of Minn., Inc. v. Citizens
for Cmty. Action, 558 F.2d 861 (8th Cir. 1977).

24.

S. Cal. Edison Co. v. Lynch, 307 F.3d 794, 803
(9th Cir. 2002)........................................................

22

San Juan County v. United States, 503 F.3d
1163,1188-1203 (10th Cir. 2007).......................

20

United States v. Talao, 222 F.3d 1133,1137-38
(9th Cir. 2000)..................................... ...................

6

United States v. Throckmorton, 98 U.S. 61,25
L.Ed. 93, 95 (1878)...............................................

14,17

Walker v. Mesquite Tex., 129 F.3d 831, 832-833
(5th Cir. 1997).........................................................

6

STATUTES
28 U.S.C.§1257

1

Federal Rules of Civil Procedure, Rule 24

19,20,21

New Jersey Court Rule 4:33

passim

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully petitions for a writ of
certiorari to review a federal question that has been
properly presented to the highest state court in the
State of New Jersey, the Supreme Court of New Jersey
in this case, which issued a final order that denied the
petition for certification and dismissed the notice of
appeal as of right. (Appendix (“Pet. App.”) la)
Therefore, it was a final judgment issued by the highest
state court that the federal question was properly
raised and expressly passed upon in the state court
proceedings.
OPINION BELOW
The Superior Court of New Jersey’s order (per
Corson, Judge of Superior Court) denying Petitioner’s
motion to intervene as an interested third party (“Pet.
App. lOa-lla) is not otherwise published.
The
Appellate Division of the Superior Court of New
Jersey’s opinion (per Rothstadt, Moynihan, and
Mitterhoff, Appellate Judges) affirming the order of the
Superior Court of New Jersey (Pet. App. 2a-9a) is not
otherwise published.
STATEMENT OF JURISDICTION
The Supreme Court of New Jersey entered its
order on April 9, 2021. (Pet. App. la) Petitioner invokes
this Court’s jurisdiction under 28 U.S.C.§1257.

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fifth Amendment of the United States
Constitution provides, in pertinent part:
...[N]or [any person] be deprived of life, liberty,
or property, without due process of law;...
The Fourteenth Amendment of the United
States Constitution provides, in pertinent part:
...[N]or shall any State deprive any person of life
liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.
New Jersey Court Rule 4:33-1 provides, in
pertinent part:
Upon timely application anyone shall be
permitted to intervene in an action if the
application claims an interest relating to the
property or transaction or transaction which is
the subject of the action and is so situated that
the disposition of the action may as a practical
matter impair or impede the ability to protect
that interest, unless the applicant’s interest is
adequately represented by existing parties.
Federal Rules of Civil Procedure, Rule 24
provides, in pertinent part:
On timely motion, the court must permit anyone
to intervene who claims an interest relating to

3
the property or transaction that is the subject of
the action, and is so situated that disposing of
the action may as a practical matter impair or
impede the movant's ability to protect its
interest, unless existing parties adequately
represent that interest.
STATEMENT OF THE CASE
Petitioner, Kevin K. Tung, Esq., Pro Se, is a
licensed attorney in the State of New Jersey and an
officer of the Court, thereby he is a part of the New
Jersey Judiciary systems pursuant to Ex parte Garland,
71 U.S. (4 Wall.) 333 (1866). In Ex parte Garland, 71
U.S. (4 Wall.) 333 (1866), the Supreme Court of the
United States ruled that counselors are officers of court.
Officers of court have legal and ethical obligations.
They are tasked to participate to the best of their
ability in the functioning of the judicial system, as a
whole, in order to forge justice out of the application of
the law while engaging in the simultaneous pursuit of
the legitimate interests of all parties and the general
good of society. As officers of the court, lawyers have
an absolute ethical duty to tell judges the truth,
including avoiding dishonesty or evasion about reasons
the attorney or his/her client is not appearing, the
location of documents and other matters related to
conduct of the courts. Therefore, if the Court accuses an
officer of the court of being dishonest with the court
during the performance of his/her duties in the
proceedings before the Court, the officer of the court
must be given the pertinent substantive and procedural
due process right to defend himself prior to the
rendering of any decisions or opinions against the

4
officer of the court by the court accusing that officer of
dishonesty.
In this instant case, Petitioner Tung, a non-party
attorney, was framed by the unconstitutional decision
and opinion of Judge Barry A. Weisberg of the Superior
Court New Jersey dated September 12, 2012 (Docket
No.: FM-12-1685-09E) and the decision and opinion of
the Appellate Division of the Superior Court of New
Jersey dated July 21, 2016 (Docket No.: A-1569-14T3) in
the matrimonial action Fou v. Fou. Both courts
rendered decisions and opinions with judicial criticisms.
in the absence of participation in the proceedings by
Petitioner Tung, against Petitioner Tung, which rises to
the level of a public reprimand and which is a sanction.
thereby due process must be given before rendering
such an opinion or decision against Petitioner Tung. See,
Bowers v. NCAA, 475 F.3d 524 (3nl Cir. 2007). (The
judicial criticism against an attorney in an opinion or
order rising to the level of a public reprimand is a
sanction, thereby due process must be given before
rendering such an opinion.) In fact, Judge Barry A.
Weisberg’s decision was based on the fraud committed
by the attorney James Plaisted, Esq. upon the court,
who eventually admitted before the Disciplinary
Investigator, Susan R. Perry-Slay in 2019 that he had
made a “misstatement” to Judge Weisberg.
Mr.
Plaisted finally stated that “he should have said ... and
he should have said ....” before the investigator. If
Petitioner Tung was afforded an opportunity to
participate the proceeding, he would have the
opportunity
to
defend
himself against
the
“misstatements” made by the attorney James Plaisted
and the outcome of the proceeding would have been
totally different.

5
After the hearing, Judge Weisberg rendered the
decision. The essential basis for this decision regarding
Petitioner Tung’s alleged unethical representation of
Mrs. Fou was that Mr. Tung failed to incorporate all the
terms in the Chinese Agreements into the English
Property Settlement Agreement (“PSA”) which was
prepared by Mr. Tung. Judge Weisberg condemned Mr.
Tung in his decision, stating that the failure to
incorporate Chinese Agreements into the English PSA
“was a knowing concealment of a relevant fact,” which
“rises to the level of a fraud upon the Court”. This
decision rendered by Judge Weisberg was a direct
result of the false statements made by attorney James
Plaisted against Petitioner Tung in the absence of
Petitioner Tung’s participation in the proceeding.
Judge Weisberg’s opinion has had a significant
adverse effect upon Petitioner Tung in all subsequent
court proceedings against Petitioner Tung, such as in
the Appellate Division, which also rendered an opinion
against Petitioner Tung. The clerk of the Appellate
Division even referred Petitioner Tung to Office of
Attorney Ethics for investigation and prosecution
before giving Petitioner Tung an opportunity to rebut
the false facts that were levied against him by the
attorney James Plaisted. Petitioner Tung was again not
notified and was not given an opportunity to defend
himself with regards to the allegations levied against
him in Appellate Division’s proceedings. Petitioner
Tung was not afforded an opportunity to file a brief on
his behalf in the Appellate Division. The conclusions
reached in the opinion rendered by the Appellate
Division against Petitioner Tung for unethical
representation of Mrs. Fou in her uncontested divorce
matter and the referral to the Office of Attorney Ethics

6
rose to the level of a public reprimand and are
considered by the courts to be a sanction. Petitioner
Tung, an Asian minority attorney, was presumed
dishonest by the New Jersey Judiciary, who concluded
that no due process was needed before referring him to
Office of Attorney Ethics.
Many Circuit Courts view that the attorney
referral to the disciplinary committees is amount to a
sanction. See, Walker v. Mesquite Tex., 129 F.3d 831,
832-833 (5th Cir.
1997) (“The importance of an
attorney’s professional reputation, and the imperative
to defend it when necessary, obviates the need for a
finding of monetary liability or other punishment as a
requisite for the appeal of a court order finding
professional misconduct.”), United States v. Talao, 222
F.3d 1133, 1137-38 (9th Cir. 2000) (Appellate jurisdiction
was proper where the district court found violation of
specific rule of professional conduct, an action which
“carries consequences similar to the consequences of a
reprimand”) In the Second Circuit, the Court held “that
we have jurisdiction over Goldstein’s appeal of the
referral to the disciplinary committees. The referral
was included in the court’s judgment and was to be
implemented by the Clerk of Court. It was in the
nature of a sanction. Even though appellant was not in
any way foreclosed from explaining or justifying his
actions to the disciplinary authorities or from arguing
that no disciplinary action was appropriate, such an
order has reputational consequences and potential costs
in responding to the referral.” “Therefore, the court’s
referral amounted to much more than implied criticism,
and, like other sanctions, we deem it reviewable.”
Goldstein v. St. Luke’s Roosevelt Hosp. Center, 430
F.3d 106,112 (2nd Cir. 2005)

7
All of the false accusations against the Petitioner
Tung could have been avoided if there were
appropriate pertinent due process procedures
implemented as outlined in Bowers v. NCAA, 475 F.3d
524 (3nl Cir. 2007). The lack of such pertinent due
process procedures in the Superior Court of New
Jersey administrative system is extremely evident, as
more than ten (10) judges in the Superior Court of New
Jersey handled the Fou v. Fou matters and none of
these ten (10) judges were alerted that the decisions
and opinions rendered by the Courts against the nonparty attorney were in violation of the non-party
attorney’s due process rights. As a result, Petitioner
Tung has suffered great harm in all subsequent
proceedings against him as well as in his daily practice.
For example, one of the opposing counsels in an
unrelated litigation case attached Judge Weisberg’s
opinion to convince the court that Petitioner Tung is
not a trustworthy attorney. Petitioner Tung does not
wish to see these same wrongs be repeated in the
future against himself and other similarly situated
attorneys because society as a whole will be forced to
suffer the consequences resulting from the Court’s
failure to implement said due process rights
contemplated by the founding Fathers of this country.
Furthermore, the Investigative Report of the
Office of Attorney Ethics of James Plaisted, Esq. sends
a clear and important message to the public that an
attorney lying to court is tolerated in the New Jersey
Judiciary systems. Mr. Plaisted did not receive any
punishment, not even a modest admonishment simply
stating, “Do not do it again.” The official reasoning was
that there was no clear and convincing evidence. When
the wrongdoer has already admitted making

8
misstatements to court, what else could possibly be
required to prove the case with clear and convincingevidence. Publicly available documents may shed
different lights. Mr. Plaisted works for a law firm by
the name of Pashman Stein Walder Hayden, P.C. The
founders of the Pashman law firm are deeply connected
with the New Jersey Judiciary systems in some ways.
Mr. Louis Pashman was the former Chair of the
Disciplinary Review Board of the Supreme Court of
New Jersey. Mr. Pashman worked closely with Charles
Centinaro, Director of the Office of Attorney Ethics,
who is supervising the investigation and prosecution of
Mr. Tung and Mr. Plaisted’s alleged ethics violations.
The rest of the founding partners are all retired judges
and law clerks from Supreme Court of New Jersey and
Superior Court of New Jersey. On the other hand, Mr.
Tung, a minority Asian attorney and an out-of-state
attorney, has no connection with the New Jersey
Judiciary other than being admitted to practice law in
the State of New Jersey. These improper connections
have led to the issues presented in the instant matter at
hand. Currently in the New Jersey Judiciary system,
connected attorneys can openly admit to committing
fraud upon the court without facing any consequences
whatsoever. On the other hand, Petitioner Tung, who is
an out-of-state minority Asian attorney, must face the
consequences resulting from James Plaisted’s actual
fraud upon the court without even being afforded an
opportunity to defend himself.
One only needs to look at the Pashman Stein
Walder Hayden P.C. website to know that something is
not right within the New Jersey Judiciary System. On
the website, it is actually listed as a point of pride how
the Pashman law firm has regularly represented judges

9
over the years when faced with their own legal
problems. The website states in relevant part, “We
take great pride in the fact that other leading law firms,
judges and lawyers have repeatedly turned to us over
the years when faced with their own legal problems.”
This statement contained on Pashman Stein Walder
Hayden P.C.’s website raises the question, why have
New Jersey judges needed to be regularly represented
by private law firms in their own personal legal matters
over the years? The Pashman law firm further
advertises their connection with the New Jersey
Judiciary system when they state, “Judges know us
well, for our insight, our thoughtful analysis, and our
creativity.” “With a deep bench of carefully selected
lawyers that includes a retired New Jersey State
Supreme Court justice, a retired Presiding judge of the
Appellate Division of the New Jesey Superior Court, a
retired New Jersey Superior Court judge, ..., it is no
wonder why our firm is admired and respected by our
peers.” These connections are in plain sight for all to
see. Meanwhile, Petitioner Tung is an out-of-state
Minority Asian attorney and has no such connections
with the New Jersey judiciary system.
To be clear, Petitioner Tung in this appeal does
not allege that any wrongdoing is discovered on the
part of the Pashman law firm other than the actions of
Mr. Plaisted, who has already admitted to making
misstatements to Judge Weisberg. Judge Weisberg
then rendered an unconstitutional decision against
Petitioner Tung based on the fraud upon the court
committed by Mr. Plaisted. The point raised by the
Petitioner here is that the court administrators of the
New Jersey Judiciary should be concerned about
creating a justice system that can be equally accessed

10
by all with clear due process procedures implemented
to eradicate any possibility of unfairness in handling the
administration of justice. In the instant matter at hand,
the New Jersey Judiciary has presumed that Minority
out-of-state attorneys are dishonest and are not worthy
of the constitutional protections afforded by pertinent
due process procedures. Situations such as this can no
longer continue, especially while New Jersey attorneys
deeply connected with the judiciary system can walk
away with no punishment after they have openly
admitted that they have committed fraud upon the
court.
To achieve the goal of fairness in the
administration of justice, the court administrators of
New Jersey Judiciary, shall implement pertinent due
process procedures to ensure that all have equal access
to the justice system. Whenever conflicts of interest
arise, the appropriate procedures shall be implemented
to avoid such a conflict of interest. In the case at bar,
the New Jersey Judiciary shall implement due process
procedures to safe guard the officers of the court, such
as, the Petitioner or attorneys similarly situated in the
future from being maliciously prosecuted by fraud upon
the court where Petitioner or attorneys similarly
situated are not a party to the action and are not given
opportunity to defend themselves. When the Director
of the Office of Attorney Ethics overseeing the
investigation of an attorney’s alleged wrongdoings in a
case has a relationship with the partners of a law firm
which operates as the opposing counsel in the same
malpractice case, the investigation of wrongdoing of an
employee of the law firm should be conducted by an
independent committee. The failure to do so has severe
consequences as can be seen in the instant matter at
hand. For example, Petitioner Tung’s law firm was
forced to file for bankruptcy to avoid the immediate

11
enforcement of a wrongful judgment. The professional
reputations of Petitioner Tung and his law firm have
been impaired and damaged.
The New Jersey
Judiciary’s position that Petitioner Tung was able to
defend himself in the malpractice action and in the
Office of Attorney Ethics’ investigation and prosecution
later after an unfair decision was rendered against
Petitioner Tung in the absence of participation by the
Petitioner is in contravene with the current due process
law. The disparity in the treatment of Minority
attorneys with no connections with the New Jersey
Judiciary System in comparison to the treatment of
attorneys with deep connections with the New Jersey
Judiciary System demonstrated that the New Jersey
Judiciary System has a systematic policy that violates
the equal protection clause of the constitution of the
United States.
In order to correct' the wrongs committed upon
the Petitioner, Petitioner Tung made motions to
intervene in both the Appellate Division of the Superior
Court of New Jersey and the Superior Court,
Middlesex County in Fou v. Fou matrimonial matter
attempting to set aside the unlawful decisions or
opinions against Petitioner, because Petitioner was not
a party. Petitioner was never served with the decision
or opinion of Judge Weisberg. The Appellate Division
first denied the access for Petitioner Tung to intervene
without legal analysis and explanations. In a recent
decision, the Appellate Division upheld the decision
rendered by the Superior Court of New Jersey,
Middlesex County on the ground that the Petitioner
Tung does not have an interest in the Fou v. Fou
matter to intervene. (Pet. App. 2a~9a)

12
The Appellate Division affirmed the Trial
Court’s decision to deny Petitioner Tung’s motion to
intervene on the ground that “Tung does not claim ‘an
interest relating to the property or transaction which is
the subject of the transaction,’ as required by Rule 4:331. Namely, Tung’s ability to practice law in New Jersey
is unrelated to the Fou’s original divorce proceeding.”
Basically, the Appellate Division narrowly interpreted
the requirement, “an interest relating to the property
or transaction which is the subject of the transaction” in
Rule 4:33-1, that must be related to the division of
marital properties in Fou v. Fou’s matrimonial action.
Since Tung’s property interest to practice law in New
Jersey has nothing to do the division of Fou’s
matrimonial action and Tung’s claims are not against
plaintiff or defendant in Fou v. Fou’s action, but instead
involve the actions of the trial judge; therefore,
intervenor Tung failed to meet the first and most
fundamental requirement of Rule 4:33-1. (Pet-. App. 2a9a)
After the State Courts denied Petitioner Tung’s
access to the State Courts to correct the wrongs
committed on him, both of the above-mentioned
unconstitutional decisions or opinions are still in public
domain and remain uncorrected, which are affecting the
professional reputation of the Petitioner and in
violation of the liberty interests of the Petitioner on a
daily basis.
THE SUPERIOR COURT OF NEW JERSEY
DECISION
On September 10, 2018, by Notice of Motion
Petitioner moved in the Superior Court of New Jersey

13
for an Order permitting the Petitioner to intervene in a
matrimonial action Janet Yijuan Fou v. Joe Zhuowu
Fou to set aside the opinion or decision of Judge Barry
A. Weisberg dated September 12, 2012. Said opinion or
decision contains negative judicial criticisms against
Petitioner, a non-party attorney to the matrimonial
matter, by Judge Weisberg in the absence of the
participation in the proceeding by Petitioner.
Petitioner was falsely accused of being dishonest with
the court during his performance of his duty as an
officer of court in the representation of Janet Fou in the
uncontested matrimonial matter. The decision granted
Mrs. Fou’s motion to set aside the divorce judgment
and it was based on a false accusation and undisputed
fraud upon the trial court that was committed by the
attorneys for Mrs. Fou. The negative judicial criticism
against Petitioner rose to a level of a public reprimand,
which is a sanction pursuant to Bowers v. NCAA, 475
F.3d 524 (3rd Cir. 2007) In Bowers, the Third Circuit
ruled when judicial criticism contained in a decision or
opinion rises to the level of a public reprimand against a
non-party attorney, the non-party attorney must be
given an opportunity to defend himself before
rendering such opinions and decision against the nonparty attorney. The decision of Judge Weisberg falsely
accused Petitioner of being dishonest with the court
this is still affecting Petitioner Tung’s liberty interest
in his profession as a lawyer.
On December 18, 2018, the Superior Court of
New Jersey denied Petitioner’s motion to be permitted
to intervene on the ground that Petitioner failed to
implead into the matrimonial action under R4:31.
Petitioner’s claims are not against Plaintiff or

14
Defendant in the matrimonial action, but instead
involves the actions of the trial Judge. Pet. App lla-12a.
THE APPELLATE DIVISION DECISION

>

On February 20, 2019, Petitioner filed Notice of
Appeal with Appellate Division of New Jersey Superior
Court. Petitioner argued two major legal issues. First,
this appeal presents a substantial constitutional
question arising under the Constitution of the United
States and there has been full recognition of the due
process right granted to the Petitioner by the ruling in
the United States Court of Appeals for the Third
Circuit. Both the trial court below and the Appellate
Division rendered decisions with findings of facts
against the non-party attorney, the Petitioner here, for
Mrs. Fou in her uncontested matrimonial action
without first giving the non-party attorney an
opportunity to be heard and said decisions and opinions
contained judicial criticisms against the non-party
attorney that rose to the level of a public reprimand,
which has been determined by Third Circuit to be a
sanction. Therefore, due process must be given before
rendering such opinions and decisions.
Second, this appeal presents a classic fraud upon
the court under the Throckmorton doctrine that was
set forth more than one hundred years ago by the
Supreme Court of the United States, the relief must be
granted to Petitioner here on the ground that when
fraud upon the court practiced directly upon the party
seeking relief against the judgment or decree and that
party has been prevented from presenting all of his
case to the court. This legal principal or doctrine was
set forth in place over one hundred years ago. The

15
miscarriage of justice was repeated in Fou v. Fou case
here again.
When the attorneys for Mrs. Fou
committed frauds upon the trial court by presenting
false evidence and certification against the non-party
attorney, Petitioner was not afforded an opportunity to
defend himself or present his case to the trial court
below before negative findings of facts were rendered
against the non-party Petitioner here.
Based on these legal principals, the decisions or
opinions of the trial court below and the Appellate
Division must be set aside to the extent that any
judicial criticisms against the non-party attorney must
be corrected publicly. There is one thing in common
under both legal theories: the non-party Petitioner did
not participate in either of the proceedings in trial court
or in Appellant Division when the false findings of facts
against Petitioner here, a non-party, were rendered.
Petitioner Tung was not only not afforded an
opportunity to defend himself before the judicial
criticism rendered against him, but also both the Trial
Court below and the Appellate Division denied
Petitioner Tung’s motions to intervene to set aside the
unconstitutional decisions against him afterwards on
the ground that “Tung does not claim ‘an interest
relating to the property or transaction which is the
subject of the transaction,’ as required by Rule 4:33-1.
Namely, Tung’s ability to practice law in New Jersey is
unrelated to the Fou’s original divorce proceeding.”
Under this narrow interpretation, the Trial Court
below and the Appellate Division are essentially saying
that an attorney has no interest relating to the
property or transaction in dispute in a matrimonial
action even if that attorney is continuously adversely

16
affected by an unlawful decision arising directly from
the property or transaction in dispute. This narrow
interpretation of the requirement posited by Rule 4:331 must be rejected in the interest of justice because
Petitioner Tung clearly has a liberty interest in his
reputation as an attorney and in his ability to practice
law in the state of New Jersey, all of which were
adversely affected by the outcome of the litigation in
this matter.

REASONS FOR GRANTING THE WRIT
The petition for writ of certiorari should be
granted for the following reasons:
First, more than a hundred years ago, the
Supreme Court of the United States set forth an
honorable title “Officer of the Court” for all attorneys in
this country in Ex Parte Garland, 71 U.S. (4 Wall.) 333
(1866). Over the years, the honorable title “Officer of
the Court” is tarnished by some of the attorneys who
breached their duties during the performance as an
officer of the court. The instant case at hand can
reestablish and reaffirm the honorable title of Officer of
the Court for all attorneys in the modern era.
Even if the title of Officer of the Court has been
set forth for over a hundred years, the basic principle
behind the name Officer of Court has not been changed.
Officers of the court have legal and ethical obligations.
They are tasked to participate, to the best of their
ability, in the functioning of the judicial system as a
whole in order to forge justice out of the application of
the law while engaging in the simultaneous pursuit of
the legitimate interests of all parties and the general

17
good of society. As officers of the court, lawyers have
an absolute ethical duty to tell judges the truth,
including avoiding dishonesty or evasion about reasons
the attorney or his/her client is not appearing, the
location of documents and other matters related to
conduct of the courts. To reestablish and reaffirm this
principle will promote the public confidence in our
judicial systems.
Second, more than a hundred years ago, the
Supreme Court of the United States set forth the
Throckmorton doctrine in United States v.
Throckmorton, 98 U.S. 61, 25 L.Ed. 93, 95 (1878), the
relief should have been granted to the party on the
ground that there is “some fraud practiced directly
upon the party seeking relief against the judgment or
decree”, and “that party has been prevented from
presenting all of his case to the court.” This principle is
based on the constitutional due process right, which can
prevent the innocent from being maliciously
prosecuted.
The instant case at hand focuses on a classic
fraud committed upon the court by an attorney under
the Throckmorton doctrine. Despite the Throckmorton
doctrine having been firmly established for well over
one hundred years, the exact miscarriage of justice that
the Throckmorton doctrine was designed to prevent
was repeated here when the attorneys and fellow
officers of the court representing Mrs. Fou committed
fraud upon the trial court by presenting false evidence
and certifications against the non-party attorney, who
was not afforded an opportunity to defend himself or
present his case to the trial court below before negative
findings of fact were rendered against the non-party

18
attorney. To revisit this principal in this instant case
will not only to assure to safe guard the innocent victim
from the fraud upon the court, but also will promote the
public confidence in the trust of the integrity of our
judicial systems.
Third, in the instant case, the very basic
fundamental due process right of a non-party attorney
is violated. As officers of the court, lawyers have an
absolute ethical duty to tell judges the truth, including
avoiding dishonesty and other matters related to
conduct of the courts. The relationship between an
officer of court and the judiciary systems is a working
relationship akin to an employee working for an
employer or a soldier employed by an army relationship.
Therefore, if an officer of the court is accused of being
dishonest with the court during his performance of his
duty in the court proceeding by the court, the officer of
the court must be given pertinent substantive and
procedural due process to defend himself before the
court, which had accused the officer of court for
misconduct, to render any decisions or opinions against
the officer of the court. Failure to implement pertinent
due process procedures required by the federal laws to
safe guard the officers of the court from being
maliciously prosecuted by fraud upon the court created
a hostile work environment for its officers of the court.
Fourth, the instant case presents an important
issue concerning the organization of the judiciary
system to provide equal access to judiciary system.
The instant case at hand demonstrated the importance
to implement pertinent and clear due process
procedures to eradicate any possibility of unfairness in
handling administration of justice. Minority attorneys

19
cannot be presumed to be dishonest and to not need the
protections afforded to everyone else under due process
of the law, while attorneys deeply connected with the
judiciary systems can walk away with no punishment
even after openly admitting to committing fraud upon
the court.
To achieve the goal of fairness in
administration of justice, New Jersey judiciary must
implement pertinent due process procedures to ensure
that all have equal access to the justice system.
Whenever conflicts of interest arise, the appropriate
procedures shall be implemented to avoid such a
conflict of interest. Only by doing so will the public’s
confidence in justice system will be boosted and the
integrity of the judiciary systems will be protected.
Fifth, The Appellate Division’s narrow and
mechanic interpretation of “an interest relating to the
property or transaction” must be “in” the parties’
property does not serve the ends of justice. Petitioner
Tung’s due process and liberty interest are affected by
Judge Weisberg’s unconstitutional decision. Without
being permitted to intervene in the matter Fou v. Fou,
where the decision was rendered in the absence of
Petitioner Tung’s participation, the violation of
Petitioner Tung’s due process right and liberty interest
can never be addressed.
NJ Rule 4:33-1 mirrors the Federal Rule of Civil
Procedure 24(a) with almost identical language, which
states that “[ujpon timely application anyone shall be
permitted to intervene in an action: (1) when a statute
of the United States confers an unconditional right to
intervene; or (2) when the applicant claims an interest
relating to the property or transaction which is the
subject of the action and the applicant is so situated

20
that the disposition of the action may as a practical
matter impair or impede the applicant’s ability to
protect that interest, unless the applicant’s interest is
adequately represented by existing parties.” Hence,
decisions by federal courts across the nation shall be
persuasive legal authorities.
Sixth, New Jersey Appellate Division’s narrow
and mechanic interpretation of “an interest relating to
the property or transaction” must be “in” the parties’
property conflicts in various respects with the holdings
in federal circuit courts and with Appellate Division in
New Jersey.
In San Juan County v. United States, 503 F.3d
1163, 1188-1203 (10th Cir. 2007), the Tenth Circuit
discussed the issue in great detail. After a lengthy
analysis of the legislature history and the
interpretation of the courts on the issue, the Tenth
Circuit arrived the conclusion that speaking of
intervention of right is not a mechanic rule and it
requires courts to exercise judgment based on the
specific circumstances of the case. “The applicant must
have an interest that could be adversely affected by the
litigation.” See, Id at 1199. In its analysis, the Tenth
Circuit rejected the test that the interest must be
“direct, substantial, and legally protectable.” The
Tenth Circuit specially stated that the court recognize
that the intervenor in this case does not claim that it
has title to Salt Creek Road, even though this is a
quiet-title suit. But Rule 24(a)(2) does not speak of “an
interest in the property”; rather, it requires only that
applicant for intervention “claim an interest relating to
the property or transaction which is the subject of the
action.” See Id at 1200. The Tenth Circuit concluded

21
that the intervenor’s interest in the environmental
impact of the Salt Creek Road vehicular traffic satisfies
the conditions of Rule 24(a)(2) that it claim “an interest
relating to the property or transaction which is the
subject of the action and intervenor is so situated that
the disposition of the action may as a practical matter
impair or impede its ability to protect that interest.
This is exactly the situation in the instant case.
Petitioner Tung does not claim that he has an interest
in the properties of the Fous, but Tung has an interest
relating to the property or transaction because the
determination of Mrs. Fou’s motion to set aside the
Property Settlement Agreement prepared by Tung
was based on the same set of false facts that would be
used later against Petitioner Tung for alleged
misconducts he was accused of committing in the
preparation of the Property Settlement Agreement to
be set aside. Petitioner Tung is so situated that the
disposition of the action which may as a practical
matter impair or impede his ability to protect that
interest. This interpretation of the second requirement
of the Rule 4:33-1 is exactly what the court below was
confused about. Petitioner Tung does not have to be an
adversary party to either Mr. Fou or Mrs. Fou before
he could intervene. The decision rendered by Judge
Weisberg in the absence of participation of Petitioner
Tung had violated Petitioner Tung’s due process right
and Tung is a victim of the fraud upon the court
committed by the attorneys for Mrs. Fou during the
proceeding to set aside the Property Settlement
Agreement. The only way to make the correction to
the wrongs committed upon Petitioner Tung was to
permit Tung to intervene in the action where the

22
wrongs were committed. Therefore, Petitioner Tung’s
motion for intervention should have been granted.
Even in those circuits that adopt the “direct,
substantial, and legally protectable” test, the courts in
those circuits still often recognize, explicitly or
implicitly that they must yield to pragmatic concerns.
“The ‘interest’ test is not a clear-cut or bright-line rule,
because no specific legal or equitable interest need to
be established. Instead, the ‘interest’ test directs
courts to make a practical, threshold inquiry, and is
primarily a practical guide to disposing of lawsuits by
involving as many apparently concerned persons as is
compatible with efficiency and due process.” S. Cal.
Edison Co. v. Lynch, 307 F.3d 794,803 (9th Cir. 2002)
The Seventh Circuit in a decision permitted
corporations that had been indicted to intervene to
oppose the State’s motion for disclosure of grand jury
transcripts for a civil suit. The court said simply: “[T]he
intervenors have an interest sufficient to satisfy the
requirement of standing and to entitle them to
intervene ....Indicted persons now defending a civil
action involving the same facts are ...among those who
would be adversely affected by disclosure of the
information, and therefore should have a right to be
heard. See, Illinois v. Sarbaugh, 552 F.2d 768 (7th Cir.
1977) This is exactly the same situation in the instant
case, Mrs. Fou, the Petitioner Tung’s prior client made
a motion to set aside the Property Settlement
Agreement prepared by Petitioner Tung in Fou v. Fou
matter, the determination of Judge Weisberg as to
Petitioner Tung’s alleged misconduct in Mrs. Fou’s
representation would adversely affect Petitioner
Tung’s liberty interest, his professional reputation;

23
especially sufficient evidence demonstrated that the
attorneys for Mrs. Fou committed fraud upon the court
to obtain the decision to set aside the PSA prepared by
Petitioner Tung and Petitioner Tung was not given due
process right to defend himself and the law firm in the
proceeding to set aside the PSA prepared by them.
Intervenor Tung’s is using the same set of facts that
were the basis for his client Mrs. Fou to set aside PSA
prepared by Petitioner Tung.
In another case, the Seventh Circuit allowed a
church suing an architect to intervene in a suit by the
architect’s insurer for a declaratory judgment that it
had no obligation to defend or indemnify the architect,
whose only significant asset was the insurance policy.
See, Ins. Co. v. Schipporeit, Inc., 69 F.3d 1377 (7th Cir.
1995) The Church had no direct interest in the battle
between the insured and carrier, but the Church would
be adversely affected by the outcome of the
determination of the battle between the insured
architect and his insurance carrier.
Like here,
Petitioner Tung’s stake would be adversely affected by
the outcome of the determination by Judge Weisberg in
Mrs. Fou’s motion to set aside the PSA prepared by
Petitioner Tung.
Since Petitioner Tung was not
provided due process right to defend himself and his
law firm and the decision was a product of fraud upon
the court by attorneys for Mrs. Fou, Petitioner Tung’s
motion to intervene to set aside the decision that has
bearing on Petitioner Tung’s liberty interest should be
permitted as of right.
In an Eighth Circuit case, the court permitted a
group of homeowners to intervene in an action
involving the constitutionality of a municipal ordinance

24
which placed a temporary moratorium on the operation
of abortion clinics. The court ruled that the potential
loss in the market value of the intervenors’ homes
constituted a sufficient “interest” under Rule 24(a)(2)
even though none of the homeowners had experienced
any actual loss. See, Planned Parenthood of Minn.,
Inc. v. Citizens for Cmty. Action, 558 F.2d 861 (8th Cir.
1977).
In a decision of District of Columbia Circuit, the
court permitted the Wisconsin banking commissioner to
intervene in a suit by a Wisconsin bank against the
United States Comptroller of the Currency to prevent
the opening of a branch of a national bank near the
state bank. The commissioner’s claim is not against
neither Wisconsin bank nor United States Comptroller
of Currency, yet the importance of the commissioner’s
intervention is made clear by the opinion. See, Nuesse
v. Camp., 128 U.S. App. D.C. 172, 885 F.2d 694 (D.C.
Cir. 1967)
In State of New Jersey, courts have decided that
based upon the express language of R.4:33-2 and
R.4:33-3, in deciding whether to permit intervention, a
court should consider if the intervenor has standing in
its own right to assert a claim or defense that presents
a common question of law or fact with the pending
action.
See, New Jersey Dept, of Environmental
Protection v. Exxon Mobil Corp., 453 N.J.Super. 272,
286, 181 A.3d 257 (App. Div. 2018) “Our courts do not
require potential intervenors to have an interest ‘in’ a
plaintiffs or defendant’s property.
Rather, it is
sufficient that intervenors own property adjacent to the
property at issue.” New Jersey Dep’t of Envtl. Prot. v.
Exxon Mobil Corp., 2015 NJ.Super.Unpub.LEXIS

25
3052, Cliesterbrooke Ltd. P’ship v. Planning Bd. Of
Twp. Of Chester, 237 N.J.Super. 118, 124, 567 A.2d 221
(App. Div. 1989). In In re Camden City, 170 N.J. 439,
449, 790 A.2d 158 (2002), the Supreme Court of New
Jersey held that “ a party must present a sufficient
stake in the outcome of the litigation, a real
adverseness with respect to the subject matter, and a
substantial likelihood that the party will suffer harm in
the event of an unfavorable decision.” Therefore, the
Appellate Division below erred in affirming the decision
of the trial court which denied the Petitioner’s motion
to intervene on the ground that Petitioner does not
have an interest in the property of the parties in Fou v.
Fou matrimonial action. The ends of justice cannot be
served if Judge Weisberg’s decision, which is
unconstitutional and a product of fraud upon the courts,
especially those opinions or decisions continue to injure
the Petitioner’s professional reputation and liberty
interest on a daily basis, is not set aside or modified.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
Kevin K. Tung, Esq., Pro Se
Queens Crossing Business Center
136-20 38th Avenue, Suite 3D
Flushing, NY 11354
(718) 939-4633
ktung@kktlawfirm.com

